HHS/OIG, Audit -"Review of the Massachusetts Insurance Intercept Program,"(A-01-02-02501)
Department
of Health and Human Services
"Review of the Massachusetts Insurance Intercept Program," (A-01-02-02501)
September 17, 2002
Complete
Text of Report is available in PDF format (3.78 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate the effectiveness of Massachusetts procedures for identifying and intercepting
insurance claim payments from non-custodial parents (NCP) with past due child support.  We found that the Massachusetts
program was highly effective in collecting over $9 million from 3,052 insurance payments to non-custodial parents from
April 1999 through September 2001.  For child support cases with delinquent balances, our analysis of the insurance
amounts intercepted showed the collections: (i) reduced outstanding child support for an estimated 3,052 delinquent cases
by about 22 percent, (ii) increased financial support to children by an estimated $5.4 million, and (iii) recovered public
assistance paid to custodial parents and their children by an estimated $4.4 million (Federal share $2.2 million).